CERTIFICATE OF WORD COUNT
No. 19-370
Samuel D. Silva-Ramirez,
Petitioner(s),
v.
Hospital Espanol Auxilio Mutuo de Puerto Rico, Inc., et al.,
Respondents).

STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. That, as required by Supreme Court Rule 33.1(h), I certify that the Samuel David SilvaRamirez Petition for Rehearing contains 749 words, including the parts of the brief that are
required or exempted by Supreme Court Rule 33.1(d).
I declare under penalty of peijury that the foregoing is true and correct.

Lucas *DeDeus
December 20, 2019

SCP Tracking: Silva-Ramirez-243 Paris St. PMB 1834-Cover Tan

